Appendix A-1
FILED August 27, 2019
IN THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT
__________________
No. 18-60674
__________________
BAY POINT PROPERTIES, INCORPORATED,
Plaintiff - Appellant
v.
MISSISSIPPI TRANSPORTATION COMMISSION;
MISSISSIPPI DEPARTMENT OF
TRANSPORTATION; DICK HALL, in his capacity as
Mississippi Transportation Commissioner; MIKE
TAGERT, in his capacity as Mississippi
Transportation Commissioner; TOM KING, in his
capacity as Mississippi Transportation
Commissioner; WAYNE H. BROWN, in his capacity
as former Mississippi Transportation Commissioner;
MELINDA MCGRATH, in her capacity as Executive
Director of the Mississippi Department of
Transportation; LARRY BROWN, in his capacity as
former Executive Director of Mississippi Department
of Transportation, also known as Butch; DANIEL B.
SMITH, in his capacity as Administrator of the
Right-of-Way Division of Mississippi Department of
Transportation,
Defendants – Appellees

Appendix A-2
__________________
Appeal from the United States District Court
for the Southern District of Mississippi
__________________
Before DAVIS, HO, and ENGELHARDT, Circuit
Judges.
JAMES C. HO, Circuit Judge:
A state court jury found that Mississippi state
officials violated the Takings Clause by exceeding the
scope of a state easement on private property. But the
jury granted a monetary award considerably lower
than the amount of United States Court of Appeals
Fifth Circuit “just compensation” sought by the
property owner. So the property owner, after losing on
appeal in state court and unsuccessfully seeking
certiorari in the U.S. Supreme Court, brought this suit
in federal court. The State moved to dismiss on
sovereign immunity grounds, and the district court
granted the motion in an exhaustive opinion. We
agree and accordingly affirm.
While this case was pending on appeal, the
Supreme Court issued its decision in Knick v.
Township of Scott, 139 S. Ct. 2162 (2019). In its
supplemental briefing, the property owner contends,
in effect, that Knick overturns prior sovereign
immunity law in cases arising under the Takings
Clause. But we find nothing in Knick to support that
claim.1
In its original brief, the property owner asked us to “address the
tension” between state sovereign immunity and the right to just
1

Appendix A-3
It is well established under the Supreme Court’s
sovereign immunity precedents that there are “only
two circumstances in which an individual may sue a
State”: (1) Congressional abrogation of state sovereign
immunity consistent with the Enforcement Clause of
the Fourteenth Amendment; or (2) State waiver of
immunity. See Coll. Sav. Bank v. Fla. Prepaid
Postsecondary Educ. Expense Bd., 527 U.S. 666, 670
(1999). As the district court correctly concluded,
neither of these circumstances are present in this
case.
Nothing in Knick alters these bedrock principles
of sovereign immunity law. To begin with, the Court
did not even have occasion to reconsider sovereign
immunity law in Knick, because that case involved a
suit against a locality, and it is well established that
local governments are not entitled to the sovereign
immunity enjoyed by states. See, e.g., N. Ins. Co. of
N.Y. v. Chatham County, 547 U.S. 189, 193 (2006)
(“[T]his Court has repeatedly refused to extend
sovereign immunity to counties.”); Jinks v. Richland
County, 538 U.S. 456, 466 (2003) (“[M]unicipalities,
unlike States, do not enjoy a constitutionally
protected immunity from suit.”).
Nor does anything in Knick even suggest, let alone
require, reconsideration of longstanding sovereign
compensation under the Fifth and Fourteenth Amendments.
That determination, however, is one for the Supreme Court—not
this panel. See, e.g., McMurtray v. Holladay, 11 F.3d 499, 504
(5th Cir. 1993) (holding that takings claims under the Fifth
Amendment are “barred because under the Eleventh
Amendment, a citizen may not sue his own state in federal
court”) (citing U.S. CONST. amend. XI; Pennhurst State Sch. &
Hosp. v. Halderman, 465 U.S. 89, 98 (1984)).

Appendix A-4
immunity principles protecting states from suit in
federal court. Rather, Knick held only that “a property
owner has a claim for a violation of the Takings
Clause” cognizable in federal court “as soon as a
government takes his property for public use without
paying for it.” 139 S. Ct. at 2170. Accordingly, Knick
did away with the previous rule requiring “a property
owner [to] pursue state procedures for obtaining
compensation before bringing a federal suit.” Id. at
2173.
In other words, to the extent that Knick has any
effect on suits against state governments, the Court
simply put takings claims against state governments
on equal footing with claims against the federal
government. See id. at 2170 (“We have long recognized
that property owners may bring Fifth Amendment
claims against the Federal Government as soon as
their property has been taken.”). And nobody disputes
that takings claims against the federal government
require the waiver of sovereign immunity contained in
the Tucker Act. See id. (citing 28 U.S.C. § 1491(a)(1));
id. at 2186 (Kagan, J., dissenting) (“The Tucker Act
waives the Federal Government’s sovereign
immunity.”).
Not surprisingly, then, the Tenth Circuit has
already held that Knick does not alter traditional
principles of state sovereign immunity. See, e.g.,
Williams v. Utah Dep’t of Corr., 928 F.3d 1209, 1214
(10th Cir. 2019) (“Knick did not involve Eleventh
Amendment immunity, which is the basis of our
holding in this case. Therefore, we hold that the
takings claim against the [Utah Department of

Appendix A-5
Corrections] must be dismissed based on Eleventh
Amendment immunity.”). We therefore affirm.

Appendix B-1
FILED August 20, 2018
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT
OF MISSISSIPPI
SOUTHERN DIVISION
BAY POINT PROPERTIES, INC.
v.

PLAINTIFF

Civil No. 1:17cv207-HSO-RHW

MISSISSIPPI TRANSPORTATION
COMMISSION, et al.
DEFENDANTS
MEMORANDUM OPINION
AND ORDER GRANTING DEFENDANTS’
MOTION [6] TO DISMISS
BEFORE THE COURT is the Motion [6] to
Dismiss
filed
by
Defendants
Mississippi
Transportation Commission (“MTC”), Mississippi
Department of Transportation (“MDOT”), Dick Hall,
Mike Tagert, Wayne H. Brown, Melinda McGrath,
Larry “Butch” Brown, and Daniel B. Smith. Plaintiff
Bay Point Properties, Inc. (“Bay Point”) owns fourteen
acres of land sitting on the eastern shore of the Bay of
Saint Louis in Mississippi. However, the Mississippi
State Highway Commission held a permanent
easement over the land for highway purposes to
facilitate the construction and maintenance of the
eastern foot of the bridge spanning the bay. In 2005,
Hurricane Katrina struck the Mississippi Gulf Coast,
destroying the bridge. MTC and MDOT rebuilt the
bridge, after which they decided to also construct a

Appendix B-2
public park on the remainder of the property that fell
within the geographic limits of the easement.
Bay Point sued MTC and MDOT in state court,
arguing that construction of the park constituted a
taking of Bay Point’s land. A jury awarded Bay Point
as just compensation $500.00 in damages, and the
Mississippi Supreme Court affirmed the judgment.
Bay Point now brings this suit in federal court,
seeking over $16 million in just compensation and a
declaratory judgment that Defendants’ actions and
two Mississippi statutes are unconstitutional.
Because Bay Point’s claims are barred by the
Eleventh Amendment to the United States
Constitution, Defendants’ Motion [6] to Dismiss
should be granted. This case will be dismissed without
prejudice for lack of jurisdiction.
I. BACKGROUND
A. Factual Background
Bay Point is a Mississippi corporation that owns
a 14.34 acre parcel of land in Pass Christian Isles,
Mississippi. Compl. [1] ¶¶ 10, 20. This property sits at
the eastern foot of the U.S. Highway 90 bridge that
crosses the Bay of St. Louis in Mississippi. Id. Bay
Point purchased the property from Wallace Walker on
August 1, 1994. Id. ¶ 21. During Walker’s ownership
of the property, on May 27, 1952, he granted the
Mississippi State Highway Commission, which was
the predecessor to MTC, an easement over the
property for highway purposes. Id. ¶ 24. The easement
was obtained for the specific purpose constructing
“Toll Project No. 1,” the bridge crossing the Bay of

Appendix B-3
St. Louis between the cities of Pass Christian and Bay
St. Louis. Id.
After the easement was granted, MTC and MDOT
operated Toll Project No. 1 for more than fifty years
until Hurricane Katrina destroyed the bridge on
August 29, 2005. Id. ¶ 26. MTC and MDOT chose not
to rebuild Toll Project No. 1, but rather demolished
and removed it. Id. ¶ 27. MTC and MDOT decided to
relocate the bridge and selected a different roadbed for
the new U.S. Highway 90, and thus the bridge, which
required the establishment of a new right-of-way and
the acquisition of additional property. Id. ¶ 28.
Ultimately, MTC and MDOT used 4.6 acres of Bay
Point’s tract of land to build the new highway, bridge,
and its necessary right-of-way. Id. ¶ 30.
After completion of the new bridge, MTC and
MDOT elected to construct a recreational park on the
remainder of the property that was not used for the
new bridge but was still subject to the easement. Id.
¶ 31. The park was built on the abandoned roadbed of
the discontinued Toll Project No. 1. Id. ¶ 32. In its
minutes dated November 10, 2009, MTC authorized
MDOT to enter into a Memorandum of Agreement on
behalf of MTC with Harrison County regarding the
financing, construction, and operation of the park on
Bay Point’s property. Id. ¶ 36. Under the
Memorandum, MTC would construct the park and
Harrison County would operate and maintain it. Id.
¶ 38.
When Bay Point learned of MTC and MDOT’s
intention to construct the park, it sent a letter to MTC
and MDOT on November 20, 2009, objecting to the
park’s construction and demanding that construction

Appendix B-4
cease. Id. ¶ 40. On December 2, 2009, Defendant
Daniel Smith, Administrator of the Right-of-Way
Division of MDOT, emailed Bay Point requesting to
discuss the issue. Id. ¶ 41. Ultimately, MTC took the
position that the original easement had not been
abandoned and that Mississippi Code section 65-1-51
authorized it to construct the park on the property in
question under the existing easement. Id. ¶ 48.
Section 65-1-51 states, in relevant part, that the MTC
“may acquire and have the Transportation
Department develop publicly owned and controlled
rest and recreation areas and sanitary and other
facilities within or adjacent to the highway right-ofway reasonably necessary to accommodate the
traveling public.” Miss. Code. Ann. § 65-1-51. MTC
informed Bay Point that it intended to build the park
and would not purchase the property from Bay Point.
Compl. [1] ¶ 48. The park has been completed and is
currently being operated by Harrison County. Id. ¶ 51.
B. Procedural History
1.

Bay Point’s state-court jury trial and appeal

On April 1, 2011, Bay Point filed an inverse
condemnation suit against MTC and MDOT in the
Circuit Court of Harrison County, Mississippi. Id.
¶ 53. A jury trial took place from August 5 to
August 13, 2013. Id. ¶ 54. The jury returned a verdict
in favor of Bay Point on its inverse condemnation
claim, finding that the use of the property was not for
highway purposes and that there was a taking of Bay
Point’s property for public use. Id. ¶ 57. The trial court
instructed the jury that unless it found that MTC had
released the easement on its minutes, MTC retained
the easement and the jury could award Bay Point a

Appendix B-5
sum of money not to exceed a nominal sum supported
by the evidence in the case. Id. ¶¶ 55, 58. The jury
determined that the easement continued to encumber
the property, Miss. Sup. Ct. Op. [1-1] at 1-2, and
awarded Bay Point $500.00 in damages, Compl. [1]
¶ 59. The trial court denied Bay Point’s motion for
attorneys’ fees and costs, and entered a Final
Judgment on January 8, 2014. Id. ¶ 60.
Bay Point appealed the trial court’s Final
Judgment to the Supreme Court of Mississippi, id.
¶ 61, which affirmed the merits1 of the Final
Judgment on July 21, 2016, id. ¶ 62. After the
Supreme Court of Mississippi resolved Bay Point’s
appeal, on March 3, 2017, Bay Point filed a petition
for a writ of certiorari with the United States Supreme
Court, which denied Bay Point’s petition on June 26,
2017. Compl. [1] ¶ 63-64.
2.

Bay Point’s Complaint in federal court

On July 21, 2017, Bay Point filed a Complaint [1]
in this Court pursuant to 42 U.S.C. § 1983, advancing
several claims for constitutional violations. The
Complaint names as Defendants MTC, MDOT, Mike
Tagert and Tom King, in their capacities as
Mississippi Transportation Commissioners, Wayne
Brown and William Minor, in their capacities as
former Mississippi Transportation Commissioners,
Melinda McGrath, in her capacity as Executive
Director of the MDOT, Larry “Butch” Brown, in his
The Mississippi Supreme Court reversed that portion of the
judgment which denied Bay Point’s motion for attorneys’ fees
and costs, and remanded that single issue to the circuit court.
Id. ¶ 62.
1

Appendix B-6
capacity as former Executive Director of MDOT, and
Daniel Smith, in his capacity as Administrator of the
Right-of-Way Division of MDOT. Compl. [1].
Counts I, II, and VI of the Complaint bring
takings, substantive due process, and unreasonable
seizure claims, respectively. Compl. [1] at 19. These
claims rest upon similar grounds, specifically, that
Defendants physically invaded Bay Point’s property
and destroyed Bay Point’s property rights without just
compensation. Bay Point alleges that when MTC and
MDOT discontinued Toll Project No. 1, the purpose of
the easement was terminated and the property was no
longer burdened by the easement under common law.
Id. at 79. MTC was then mandated to release the
easement on its minutes under Mississippi Code
section 65-1-123. Alternatively, Bay Point claims that
section 65-1-123 cannot be applied retroactively to the
easement created in 1952. Bay Point contends that
Defendants’ enforcement of Mississippi Code sections
65-1-123 and 65-1-51 to take Bay Point’s land without
just compensation is unconstitutional.
In Count III advances a procedural due process
claim, Compl. [1] at 34, and Count IV alleges a
violation of equal protection, id. at 35. Bay Point
claims that Defendants violated the Contracts Clause
of the Fourteenth Amendment in Count V on grounds
that Mississippi Code section 65-1-123(5)-(7) was not
added to the statute until 1988, and Defendants
cannot retroactively apply that statute to impair Bay
Point’s rights under the easement since it was
executed in 1952. Compl. [1] at 37-38.
Count VII asserts a violation of 42 U.S.C. § 1983
and claims that Defendants violated Bay Point’s

Appendix B-7
constitutional rights by taking its property without
just compensation, Compl. [1] at 39, while Count VIII
advances a claim for unjust enrichment/constructive
trust. Bay Point asserts that it is the owner of the
underlying fee interest in the property and that
Defendants will be unjustly enriched if they continue
to possess Bay Point’s property for a purpose different
from that for which the easement was granted. Compl.
[1] at 43.
Finally, Count IX seeks declaratory relief and
asks the Court to declare Mississippi Code sections
65-1-123 and 65-1-51 unconstitutional facially and as
applied to Bay Point. Compl. [1] at 44, 46. Bay Point’s
prayer for relief asks the Court to declare that
Defendants’ enforcement of Mississippi Code sections
65-1-123 and 65-1-51 violates the Takings Clause,
Due Process Clause, the Equal Protection Clause, and
the Contracts Clause of the Constitution. Compl. [1]
at 47. Bay Point seeks actual damages and just
compensation in the amount of $16,214,926.00. Id. at
47-48.
3.

Defendants’ Motion [6] to Dismiss

On September 1, 2017, Defendants filed a Motion
[6] to Dismiss, seeking dismissal for lack of subjectmatter jurisdiction under Federal Rule of Civil
Procedure 12(b)(1) and asserting that Bay Point’s
claims are barred by the Eleventh Amendment
because all Defendants are state agencies or officials
named in their official capacities and no consent has
been given for this suit. Defs.’ Mem. [7] at 5.
Defendants also raise several arguments under
Federal Rule of Civil Procedure 12(b)(6) that the
Complaint fails to state a claim upon which relief can

Appendix B-8
be granted. Defendants assert that Bay Point cannot
pursue a § 1983 claim against them because, as state
agencies and officials acting in their official capacities,
they are not suable “persons” under 42 U.S.C. § 1983.
Id. at 8. Defendants further contend that Bay Point’s
claims are barred by the doctrine of res judicata
because both the state court suit and this case involve
the construction of the park and Bay Point’s claim for
damages for the alleged taking of its property. Id. at
4-5. Defendants next argue that the applicable
statutes of limitations bar Bay Point’s claims, except
for the unjust enrichment claim. Id. at 6.
Defendants posit that all of Bay Point’s
constitutional, declaratory relief, and § 1983 claims
are governed by a three-year statute of limitations
and note that Bay Point filed its Complaint in this
Court on July 21, 2017, id. at 6-7, while the limitations
period commenced on April 15, 2010, when MDOT
notified Bay Point that it planned to continue public
use of the easement, id. at 7. Lastly, Defendants
contend that Bay Point has not stated a claim for
unjust enrichment because Defendants paid for their
property interests by purchasing a permanent
easement and paying the judgment awarded by the
jury. Id. at 9.
Bay Point counters that the Eleventh Amendment
does not bar suits against state officials in their
official capacities for an ongoing violation of federal
law that seek prospective declaratory relief. Pl.’s
Resp. [28] at 25. Bay Point contends that all
Defendants are proper “persons” under 42 U.S.C.
§ 1983 on grounds that it sued the individual
Defendants in their personal capacities and all

Appendix B-9
Defendants are proper persons when declaratory
relief is sought, id. at 29-30, and that its Complaint is
not precluded by res judicata, id. at 7-10. Bay Point
agrees with Defendants that all of its claims with the
exception of the unjust enrichment claim are governed
by a three-year statute of limitations, but takes the
position that its claims did not accrue until the United
States Supreme Court denied the petition for writ of
certiorari on June 26, 2017. Id. at 26. Lastly, Bay
Point contends that it is entitled to relief on its unjust
enrichment claim because it still owns title to the
underlying fee interest in the property and
Defendants have been unjustly enriched by using the
property. Id. at 33-34.
II. DISCUSSION
A. Legal standard
Defendants’ argument that Bay Point’s claims
should be dismissed on Eleventh Amendment
immunity grounds is a challenge to the Court’s
subject-matter jurisdiction that is evaluated under
Federal Rule of Civil Procedure 12(b)(1). Under Rule
12(b)(1), “[a] case is properly dismissed for lack of
subject[-]matter jurisdiction when the court lacks the
statutory or constitutional power to adjudicate the
case.” Home Builders Ass’n of Miss., Inc. v. City of
Madison, 143 F.3d 1006, 1010 (5th Cir. 1998)
(quotation omitted). When the Court’s subject-matter
jurisdiction is challenged, the party asserting
jurisdiction bears the burden of establishing it. King
v. U.S. Dep’t of Veterans Affairs, 728 F.3d 410, 413
(5th Cir. 2013). The Court has the power to dismiss a
complaint for lack of subject-matter jurisdiction on
any one of three bases: “(1) the complaint alone; (2) the

Appendix B-10
complaint supplemented by undisputed facts
evidenced in the record; or (3) the complaint
supplemented by undisputed facts plus the court’s
resolution of disputed facts.” Id. (quoting Ramming v.
United States, 281 F.3d 158, 161 (5th Cir. 2001)).
When presented with a motion to dismiss
pursuant to Federal Rule of Civil Procedure 12(b)(6),
a court “must assess whether the complaint contains
sufficient factual matter, accepted as true, to state a
claim for relief that is plausible on its face[.]”
Spitzberg v. Houston Am. Energy Corp., 758 F.3d 676,
683 (5th Cir. 2014) (citing Ashcroft v. Iqbal, 556 U.S.
662, 678 (2009); Bell Atl. Corp. v. Twombly, 550 U.S.
544, 570 (2007)). A court must accept all well-pleaded
facts as true and view those facts in the light most
favorable to the plaintiff. Varela v. Gonzales, 773 F.3d
704, 707 (5th Cir. 2014) (citation omitted). This tenet,
however, is inapplicable to legal conclusions. Id.
(citation omitted).
B. Analysis
1.

Immunity under the Eleventh Amendment
a.

MTC and MDOT, as state agencies,
are immune from Bay Point’s claims.

Defendants assert that this Court lacks subjectmatter jurisdiction over Bay Point’s claims on grounds
that they are immune from suit under the Eleventh
Amendment to the United States Constitution. Defs.’
Mem. [7] at 5-6. The Eleventh Amendment provides:
The judicial power of the United States shall
not be construed to extend to any suit in law

Appendix B-11
or equity, commenced or prosecuted against
one of the United States by Citizens of
another State, or by Citizens or Subjects of
any Foreign State.
U.S. Const. amend. XI.
“Eleventh Amendment immunity operates like a
jurisdictional bar, depriving federal courts of the
power to adjudicate suits against a state.” Union Pac.
R. Co. v. La. Pub. Serv. Comm’n, 662 F.3d 336, 340
(5th Cir. 2011). A nonconsenting state is immune from
suits brought in federal court by the state’s own
citizens as well as by citizens of another state.
Edelman v. Jordan, 415 U.S. 651, 662-63 (1974).
Eleventh Amendment immunity extends to any state
agency or other political entity that is deemed an
“arm” of the state. Regents of the Univ. of California v.
Doe, 519 U.S. 425, 429 (1997).
Bay Point alleges that both MTC and MDOT are
agencies of the State of Mississippi. Compl. [1] at
¶¶ 11-12; see also Miss. Code Ann. § 65-1-2
(designating MDOT as a “state agency” under statute
creating the department); Stuckey v. Mississippi
Transp. Comm’n, No. 3:07CV639TLS-JCS, 2009 WL
230032, at *1-2 (S.D. Miss. Jan. 29, 2009) (finding that
MTC is an arm of the State). MTC and MDOT are
state agencies, and there is nothing in the record to
indicate that MTC or MDOT have consented to this
suit in federal court. Therefore, the Eleventh
Amendment bars all of Bay Point’s claims against
MTC and MDOT, and these Defendants will be
dismissed from this civil action.

Appendix B-12
b.

The Eleventh Amendment bars Bay
Point’s claims against the individual
Defendants because Bay Point seeks
monetary and retrospective relief.

The remaining Defendants are all state officials of
MTC or MDOT who are being sued in their official
capacities. See Compl. [1] at 1. While Bay Point argues
in its Response that it has sued the individual
Defendants in their individual capacities, looking to
the Complaint, the case caption clearly identifies all
of the individual Defendants as sued in their
“capacit[ies]
as
Mississippi
Transportation
Commissioner, . . . Executive Director of the
Mississippi Department of Transportation,” or
“Administrator of the Right-of-Way Division” of the
MDOT. Compl. [1] at 1. The Complaint does not
mention “individual capacity” or “personal capacity”
with respect to these named Defendants. Bay Point is
represented by counsel such that it is not entitled to
the liberal construction of its pleadings normally
accorded to a pro se litigant. Cf. Miller v. Stanmore,
636 F.2d 986, 988 (5th Cir. 1981).
Even construing Bay Point’s pleading as
ambiguous as to whether the individual Defendants
are being sued in their official or individual capacities,
when a complaint does not clearly specify such
capacity, “‘[t]he course of proceedings’ in such cases
typically will indicate the nature of the liability sought
to be imposed.” Kentucky v. Graham, 473 U.S. 159,
167 n.14 (1985). “In assessing the ‘course of
proceedings,’ courts consider several factors including
the contentions made in the parties’ briefs, the
substance of the complaint, and the nature of the

Appendix B-13
relief a plaintiff seeks.” McPhail v. City of Jackson,
No. 3:13CV146-HSO-RHW, 2014 WL 2819026, at *5
(S.D. Miss. June 23, 2014).
Bay Point does contend in its brief that it has sued
the individual Defendants in their personal
capacities. But the procedural history of this case, the
substance of the Complaint, and relief sought by Bay
Point demonstrate otherwise. In state court, Bay
Point only sued the MTC and MDOT, and did not sue
any of the individual Defendants. Looking to the
substance of the Complaint, the Complaint alleges
that the easement over the property was granted to
the Mississippi State Highway Commission, which
was the predecessor to MTC, that MTC constructed
the park on Bay Point’s property, and that the jury
found that MTC took Bay Point’s property but that
MTC had not abandoned the easement. “Officialcapacity suits generally represent only another way of
pleading an action against an entity of which an
officer is an agent.” Graham, 473 U.S. at 165 (citation,
quotation marks, and ellipses omitted). Bay Point has
claimed that it has been injured by MTC’s retention of
the easement, and the substance of the Complaint
does not allege personal liability on the part of the
individual Defendants.
“Personal-capacity suits seek to impose personal
liability,” and “an award of damages against an
official in his personal capacity can be executed only
against the official’s personal assets.” Graham, 473
U.S. at 165, 166. Here, however, Bay Point seeks an
award of damages for just compensation for the
taking, an award that would not come from the
individual Defendants’ personal assets, but rather

Appendix B-14
from the State’s purse. Moreover, Bay Point does not
plead for punitive damages in its Complaint, which
are only “available in a suit against an official
personally.” Graham, 473 U.S. at 167 n.13. Bay Point
has not pleaded that it is seeking to impose personal
liability on the individual Defendants.
c.

The Ex parte Young exception does not
apply to this case.

Bay Point contends that it can nevertheless
proceed on its claims for declaratory relief against the
state officials in their official capacities. Pl.’s Resp.
[28] at 24. Under the Supreme Court’s exception to the
Eleventh Amendment created in Ex parte Young, a
suit challenging the constitutionality of a state
official’s action in enforcing state law is not a suit
against the state. 209 U.S. 123, 159-60 (1908). Ex
parte Young held that Eleventh Amendment
immunity does not prevent federal courts from
granting prospective injunctive relief to prevent a
continuing violation of federal law in claims against
state officials sued in their official capacities. Id. at
155-56. Permissible suits under Ex parte Young are
confined to cases where “the relief sought” is
“declaratory or injunctive in nature and prospective in
effect.” Saltz v. Tenn. Dep’t of Emp’t Sec., 976 F.2d
966, 968 (5th Cir. 1992).
The Supreme Court has “refused to extend the
reasoning of Young, however, to claims for
retrospective relief.” Green v. Mansour, 474 U.S. 64,
68 (1985). Ex parte Young cannot be used, for instance,
to obtain an injunction requiring the payment of funds
from the state’s treasury or an order for specific
performance of a state’s contract. Va. Office for Prot.

Appendix B-15
& Advocacy v. Stewart, 563 U.S. 247, 256-57 (2011).
Nor does Ex parte Young apply to cases where “federal
law has been violated at one time or over a period of
time in the past,” or to “cases in which that relief is
intended indirectly to encourage compliance with
federal law through deterrence or directly to meet
third-party interests such as compensation.” Papasan
v. Allain, 478 U.S. 265, 277-78 (1986). The Ex parte
Young exception is also not available “if the relief is
tantamount to an award of damages for a past
violation of federal law, even though styled as
something else.” Id. at 278.
Stated more broadly, the Ex parte Young
exception does not apply when the state is the real,
substantial party in interest. Pennhurst State Sch. &
Hosp. v. Halderman, 465 U.S. 89, 101 (1984). The
“general criterion for determining when a suit is in
fact against the sovereign is the effect of the relief
sought.” Id. at 107 (emphasis in original). In
determining whether the Ex parte Young exception
applies to a suit, “a court need only conduct a
straightforward inquiry into whether the complaint
alleges an ongoing violation of federal law and seeks
relief properly characterized as prospective.” Verizon
Md. Inc. v. Pub. Serv. Comm’n of Md., 535 U.S. 635,
645 (2002) (citation and quotation marks omitted).
Here, Bay Point advances claims seeking actual
damages and a monetary award for just
compensation. Because an award of such damages
would come from the State’s treasury, these claims are
barred.
Bay Point also seeks declaratory relief, requesting
the Court enter a declaratory judgment adjudicating

Appendix B-16
Mississippi Code sections 65-1-51 and 65-1-123
unconstitutional. Compl. [1] ¶ 205. A review of Bay
Point’s Complaint reveals that it is seeking relief that
is not prospective in nature. The substance of Bay
Point’s allegations with respect to the claim for
declaratory relief are that Defendants have applied
Mississippi Code sections 65-1-51 and 65-1-123 “to
preclude Plaintiff from recovering just compensation,”
and “to award Bay Point only a nominal sum of $500
in damages, rather than the just compensation due of
$16,214,926.” Compl. [1] ¶¶ 198-202. These
allegations indicate that Bay Point seeks declaratory
relief in order to receive greater compensation and
money damages than it did in state court based upon
a past violation of federal law. Ex parte Young does
not apply in such a situation.
The retrospective nature of Bay Point’s requested
relief is made clear by its Response in Opposition to
Defendants’ Motion to Dismiss, in which Bay Point
asserts that it seeks declaratory relief because
Defendants have applied the Mississippi statutes “to
preclude Plaintiff from recovering just compensation”
for the taking. Pl.’s Mem. [28] at 25. Moreover, Bay
Point asserts that “the Eleventh Amendment should
not immunize Defendants from the obligation to pay
just compensation.” Id. at 26. In other words, Bay
Point has acknowledged that with regard to its
requested injunctive relief, the only effect it seeks is
to require the State to pay over $16 million in
compensation.
Furthermore, with regard to the request for
declaratory relief, Bay Point posits that “[t]here is a
justiciable controversy in this case as to whether

Appendix B-17
Defendants can retroactively apply Miss. Code Ann.
§ 65-1-123 to expand the right of MTC to use property
beyond the scope of highway easements limited to
specific purposes” and as to whether Defendants have
applied the Mississippi statutes “so that private
property can be used by the public for entirely
different purposes than the one use permitted under
an existing specific highway easement without the
payment of just compensation.” Compl. [1] ¶¶203-04.
These assertions do not allege an ongoing
violation of federal law, rather, they speak in terms of
actions that have occurred in the past. Defendants’
application of these statutes to Bay Point occurred in
the past, when Defendants constructed the park on
Bay Point’s property and when the jury determined
during the state court proceedings that the easement
continued to encumber the property. The controversy
regarding MTC’s use of the property beyond a
highway purpose has already occurred and has been
adjudicated by both a state trial court and the State’s
highest court.
Bay Point does also maintain that Defendants’
“ongoing, physical invasion” of Bay Point’s property
violates the Constitution. Pl.’s Resp. [28] at 25. Even
if the Court were to construe Defendants’ continued
operation of the park as an ongoing violation of federal
law, Bay Point still has not shown enough to avoid the
Eleventh Amendment bar to its suit. Bay Point must
allege an ongoing violation of federal law and seek
relief that is prospective in nature. Verizon, 535 U.S.
at 645. In other words, Bay Point must seek relief that
will govern the future conduct of Defendants. See
Pennhurst, 465 U.S. at 102-03. Bay Point’s request for

Appendix B-18
declaratory relief does not seek to enjoin Defendants
from taking any action in the future, and Bay Point
does not allege that it faces a threatened future injury
from Defendants’ application of these statutes.
If Bay Point’s request is construed as seeking to
enjoin Defendants from operating the park and from
relying on the MTC minutes to maintain that the
easement has not been terminated, and requiring
Defendants to look to common law at the time of the
grant of the easement, under the particular
circumstances of this case such relief remains
nonetheless retrospective. A Mississippi trial court
applied the statutes Bay Point now challenges and a
jury accordingly found that the easement had not been
terminated, thus the property was still encumbered.
The Supreme Court of Mississippi affirmed that
verdict.
Declaring
the
Mississippi
statutes
unconstitutional would have the effect of nulling the
state court judgment. Bay Point’s chief complaint is
that it believes that it has been injured by receiving
only $500.00 in just compensation. But to the extent
Bay Point claims that it has been harmed by the jury’s
award, that injury has already occurred, and undoing
that verdict would in effect afford Bay Point
retrospective, not prospective, relief.
Bay Point’s claims in this regard cannot avoid
Defendants’ Eleventh Amendment immunity, and
this Court must dismiss them because it lacks
jurisdiction to adjudicate them. Because the basis for
the dismissal is this Court’s lack of subject-matter
jurisdiction due to the Eleventh Amendment, the
dismissal will be without prejudice. Campos v. United
States, 888 F.3d 724, 738 (5th Cir. 2018).

Appendix B-19
III. CONCLUSION
IT IS, THEREFORE, ORDERED AND
ADJUDGED
that
Defendants
Mississippi
Transportation Commission, Mississippi Department
of Transportation, Dick Hall, Mike Tagert, Wayne H.
Brown, Melinda McGrath, Larry “Butch” Brown, and
Daniel B. Smith’s Motion [6] to Dismiss is
GRANTED.
IT
IS,
FURTHER,
ORDERED
AND
ADJUDGED that this civil action is DISMISSED
WITHOUT PREJUDICE on grounds of Eleventh
Amendment immunity.
SO ORDERED AND ADJUDGED, this the 20th
day of August, 2018.
s/ Halil Suleyman Ozerden
HALIL SULEYMAN OZERDEN
UNITED STATES DISTRICT JUDGE

